OIG Audit Report GR-60-09-007

Office of Justice Programs Southwest Border Prosecution Initiative Funding Received by Mendocino County, California
Audit Report GR-60-09-007
December 2008
Office of the Inspector General


Executive Summary


The U.S. Department of Justice, Office of the  Inspector General, Audit Division, has completed an audit of the Southwest Border Prosecution Initiative (SWBPI) funding  awarded by the Office of Justice Programs (OJP) to Mendocino County, California. As of  April 2, 2008, Mendocino   County had received SWBPI  funding totaling $1,910,431.
  Many  drug and other criminal cases occurring along the southwest border are  initiated by a federal law enforcement agency or multi‑jurisdictional task  forces, e.g., High Intensity Drug Trafficking Areas (HIDTA) and Organized Crime  Drug Enforcement Task Forces (OCDETF).  Many  U.S. Attorneys have developed prosecution guidelines which govern the most  common violations of federal law.  These  prosecution guidelines are used by law enforcement agencies to determine  whether to file a case in federal, state, or county court. As a result, many federally initiated cases occurring near the southwest  border are referred to the state or county for prosecution.  
  The SWBPI was established in Fiscal Year (FY) 2002,  when Congress began appropriating funds to reimburse state, county, parish,  tribal, and municipal governments for costs associated with the prosecution of criminal  cases declined by local U.S. Attorneys’ offices.  Reimbursements received from SWBPI funding  may be used by applicant jurisdictions for any purpose not otherwise prohibited  by federal law.  For FY 2008,  Congress appropriated $30 million for the SWBPI.
The objective of our  audit was to determine if the SWBPI reimbursements received by Mendocino County were allowable, supported, and in  accordance with applicable laws, regulations, guidelines, and terms and  conditions of the SWBPI.
  We found that all of the cases Mendocino County claimed and was reimbursed for  were ineligible under the SWBPI guidelines.   Specifically, Mendocino   County received unallowable reimbursements totaling  $1,910,431 for 710 cases submitted because they were not federally  initiated.1
These issues are discussed in detail in the Findings and  Recommendations section of the report.   Our audit Objectives, Scope, and Methodology appear in Appendix I.


 

Footnotes

The Inspector General Act of 1978, as amended,  contains our reporting requirements for questioned costs.  However,  not all findings are dollar-related.  See Appendix II for a breakdown of our  dollar-related findings and for definitions of questioned costs. 





 




Return to OIG Home Page